                     CLOSEOUT FOR M93100051




her curriculum vitae; failed to supervise staff; failed to follow
directives from the principal investigators in a timely fashion;
failed to follow university, state, and federal policies and
procedures; exhibited racial insensitivity; failed to administer
the project,effectively; and misrepresented the project and the
university to outsiders. The N S F program director brought the
matter to O I G for review.
     O I G concluded that most of these matters were administrative
problems that should be handled by university officials or N S F
program staff and did not raise allegations of misconduct in
science. The one exception was the allegation of false statements
on the subject's curriculum vitae. The subject claimed that she
had 65 credits toward a doctoral degree, but later explained that
these included anticipated credits that she in fact was unable to
complete and graduate credits taken before she enrolled in a degree
granting program and not accepted at any one university as counting
toward a doctoral degree. Her vita also did not make clear that
she was no longer a high school principal at the time she applied
for a position with the project, but had returned to classroom
teaching.
     Making false statements on a curriculum vitae can, under some
circumstances, constitute misconduct in science. In this case,
however, both the subject's status on the project and the nature of
her statements led OIG to conclude that this was not a serious
deviation from accepted practice. The subject was not a principal
investigator, was not included as one of the key personnel in the
original proposal, and was accurately described in the second year
                   s a person with extensive experience
                   ducation. The subject's curriculum
                    r the original proposal or the progress report.
Her inaccurate statements about her progress toward a doctorate did
not in any way influence N S F decisions about this project, nor did
they mislead N S F or the project about her capacity to do the work
for which she was hired. According to one of the persons who
                            Page 1 of 2
interviewed her for her position, "at no time did she lead anyone
on the panel to believe that she either had a Ph.D. or that the
award of a-Ph.D. was imminent. Her description of her course work
consistedi".-of
              a statement that attempts to attain a degree were
years old;'"    Two interviewers have stated that she clearly
indicated at her intewiew that she was no longer a school
principal,
      This case is closed and no further action will be taken.



                          I


Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General for Oversight




James J. Zwolenik
Assistant Inspector General for Oversight




L. Nancy Birnbaum
Assistant Counsel to the Inspector General


cc:   Signatories
      Inspector General



                              Page 2 of 2
